DAVID Y.'GE
GOVERNOR

CLARE E. CONNORS
ATTORNEY GENERAL

 

DANA 0. VIOLA
STATE OF HAWAII FIRST DEPUTY ATTORNEY GENERAL
DEPARTMENT OF THE ATTORNEY GENERAL
425 Queen STREET
Honotutu, Hawall 96813
(808) 586-1500

March 5, 2021

Mr. Scott S. Harris

Clerk of the Court

Supreme Court of the United States
1 First Street, NE

Washington, D.C. 20543

RE: Bristol-Myers Squibb Co. et al. v. Connors,
Supreme Court of the United States, No. 20-1149

Dear Mr. Harris:

On behalf of respondent Clare E. Connors, Attorney General of the State of Hawai‘i, I
write to request an extension of time to prepare a brief in opposition to the petition for a writ of
certiorari in this matter. The petition for a writ of certiorari in this case was filed on February 17,
2021, and placed on this Court’s docket on February 22, 2021. The response is currently due on
March 24, 2021.

Pursuant to Rule 30.4 of the rules of this Court, I respectfully request an extension of fifty
(50) days, to and including May 13, 2021, to file the brief in opposition. This extension is
warranted given the press of other matters with proximate deadlines—including litigation and
advisory matters pertaining to the State’s response to the COVID-19 pandemic that my office is
currently engaged with—and in order to enable counsel to fully analyze and research the issues
raised in the petition in order to produce a brief in opposition that will be of maximum benefit to
the Court. Petitioners, through counsel, have stated that they do not oppose this request.

Respectfully Submitted,

asmiouey Sty
KIMBERLY T. GUIDRY
Solicitor General

Counsel for Clare E. Connors, in her official
capacity as the Attorney General of the State of
Hawai‘i
cc: Anand Agneshwar, Esq.
Paul Alston, Esq.
Louise K.Y. Ing, Esq.
John P. Elwood, Esq.
Daniel S. Pariser, Esq.
Robert N. Weiner, Esq.
Sally L. Pei, Esq.
